REVOLVING CREDIT AGREEMENT
(NY Residents: RETAIL INSTALMENT CREDIT AGREEMENT)
IMPORTANT INFORMATION ABOUT PROCEDURES FOR
OPENING A NEW ACCOUNT
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to obtain, verify, and record
information that identifies each person who opens an account. What this means
for you: When you open an account, we will ask for your name, address, date of
birth, and other information that will allow us to identify you. We may also ask to
see your driver’s license or other identifying documents.

SUMMARY OF CREDIT TERMS
Interest Rates and Interest Charge
Annual Percentage Rate
(APR) for Purchases

27.74%

How to Avoid Paying
Interest

Your due date is at least 21 days after the close
of each billing cycle. We will not charge you any
interest if you pay your entire balance by the due
date each month.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about the factors to consider when
applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

This APR will vary with the
market based on the Prime Rate.

Fees

Penalty Fees
•
Late Payment
•
Returned Payment

$15.00
$20.00

Billing Rights: Information on your rights to dispute transactions and how to
exercise those rights is provided in the Agreement below.
How We Will Calculate Your Balance: We use a method called “Daily Balance”. The “Daily Balance” is determined by taking the opening balance of the
account for that specific day and (1) adding any new purchase(s) made that day,
and any fees incurred on that day and (2) subtracting any payments or credits
applied that day.
Margin, Annual Percentage Rate (“APR”) and Daily Periodic Rate (“DPR”)
Rate

Margin

APR

Current DPR

Purchase Rate

23.74%

27.74%

0.076%

Variable Rate: Your Periodic Rate and corresponding APR will change if the
Prime Rate changes. Your APR and corresponding DPR will vary with the market
based on the Prime Rate. The “Prime Rate” is the highest bank prime loan rate
published by The Wall Street Journal in its Money Rates Section on the 25th day
(or next business day if the 25th is not a business day) of the calendar month
preceding the first day of the billing period. To calculate the Annual Percentage
Rate, we take the Prime Rate and add the Margin stated above. If the Periodic
Rate and corresponding Annual Percentage Rate increase, your interest charges
will increase and your minimum payment may be greater.
1. Definitions: In this Revolving Credit Agreement (“Agreement”), the word “Account”
refers to the account established by Brand Banking Company, a Georgia state-chartered
bank (“Bank”) that is the subject of this Agreement. The words “you” and “your” refer to
each individual who signs the Application for the Account and who, either on his own or her
own or with another individual is authorized to use the Account. The words “we” “us” and
“our” refer to Bank, and any person to whom an outstanding balance under this Agreement
is transferred, assigned or pledged.
2. Promise to Pay: In return for extending credit to you on this Account from time to time,
you agree to pay for all purchases you charge on this Account, and all other charges
mentioned in this Agreement, including the Summary of Credit Terms above, according to
the terms of this Agreement. When you sign the Application for this Account, you will be
agreeing to everything written here. Therefore, before you sign the Application, you should
read this entire Agreement, which includes the disclosures required by applicable federal or
state law. The information you provide on the Application that identifies you is incorporated
in this Agreement by reference. This Agreement will not be effective until we approve your
Application, and then, after that, only if you or someone authorized by you signs an Invoice
or otherwise charges a purchase to this Account (in NY, the first date that you sign a sales
slip or memorandum).
3. Using Your Account: You may charge purchases to your Account (up to your credit
limit) for up to 90 days from the date your account is approved. Thereafter, you must apply
for additional credit. You may make payments on your Account at any time without penalty.
4. Grace Period/Cost of Credit:
A. Regular Terms: Interest will be imposed at the Annual Percentage Rate (“APR”) shown
		 on the Summary of Credit Terms above. The APR will vary with the market based on
		 the Prime Rate. If you do not have a balance at the beginning of a cycle, interest is 		
		 imposed at the beginning of the next cycle date following your purchase. If you have a
		 balance at the beginning of a cycle, interest is imposed from the purchase date.
		 However, you will avoid paying Interest if we receive your total outstanding balance on or
		 before the due date shown on the statement for that cycle or if your Previous Balance is

zero or you have a credit balance.
B. 180 Days Deferred Interest Period: You may pay the original amount of a purchase in
		 full within 180 days from delivery deferred interest period and pay no Interest. Interest
		 accrues during the deferred interest period but is waived if the entire purchase balance
		 is paid in full within 180 days. However, you must make all scheduled minimum monthly
		 payments due in full and on time. If any required minimum monthly payment is not 		
		 received by the due date shown on the statement, Interest will be applied to the 		
		 purchase under the Regular Terms of Section 4A.
C. Method of Computing Finance Charge: We figure the Interest charge on your 		
		 Account by applying the above stated Daily Periodic Rate to the “Daily Balance” of your
		 Account. To get the “Daily Balance” we take the beginning balance of your Account 		
		 each day, add any new purchases, and subtract all payments or credits. This gives us
		 the “Daily Balance”.
5. Minimum Monthly Payment: The Minimum Monthly Payment is the greater of $75, or
5% of the total amount of each New Balance as of the current statement date, plus any
non-interest costs or charges that accrued during a billing cycle.
6. Payment Allocation: Subject to applicable law, we will apply the required total minimum
payment to the balances on your account using any method we select. You may not tell us
how to apply excess payments. Any additional payment in excess of the Minimum Payment
will be applied to principal balance. This additional payment will not reduce or eliminate
your next regularly scheduled payment. Any payment you make in excess of the required
total minimum payment will be applied to the higher APR balances before the lower APR
balances. Applicable law may require or allow us to apply excess payments in a different
way under certain circumstances.
7. Timing of Payments: You must pay the minimum payment by the due date on your
billing statement by 6:00 p.m. ET for each billing cycle. Payments received after 6:00 p.m.
may be reflected as received on the next business day. You may at any time pay, in whole
or in part, the total unpaid balance without any additional charge for prepayment.
8. Default/Collection Costs: Your account will be considered in default if (i) you fail to pay
any minimum monthly payment within 60 days of when due: (ii) you file bankruptcy or insolvency proceedings; (iii) you become subject to attachment or garnishment proceedings;
(iv) you give us any false information or signature; (v) you die; or (vi) you fail to comply with
any portion of this Agreement. Subject to any right you may have under state law to receive
notice of and to cure such default, if you default we may declare the entire unpaid balance
on the Account and we may bring suit against you to collect the amount you owe, in
addition to the full amount owed, subject to applicable law, and our court costs as may be
awarded by the court.
9. Disputed Amounts: We can accept late, postdated or partial payments without losing
any of our rights under this Agreement. (A postdated check is a check dated later than the
day it was actually presented for payment.) We are under no obligation to hold a postdated
check and we reserve the right to process every item presented as if dated the same date
received by act on it. Except where such notice and opportunity is given, you may not hold
us liable for full, “without recourse”, or similar language. If you send such a payment, we
may accept it without losing any of our rights under this Agreement. All communications
concerning disputed amounts, including any check or other payment instrument in
any amount less than the full amount due that you send to us marked “paid in full”,
or you otherwise tender as full satisfaction of a disputed amount, must be sent to us
at the address for customer service shown on the billing statement.
10. Returned Payment Fee: If any payment sent to us for payment on your Account is
returned to us unpaid by the bank, we may charge you a Returned Payment Fee as
provided in the Summary of Credit Terms above. You agree that we can add the Returned
Payment Fee to the balance due on your Account.
11. Late Payment Fee: If your minimum monthly payment is not received by us within 10
days after it is due, we will impose a Late Payment Fee in the amount provided in your
Summary of Credit Terms Above. You agree that we can add Late Payment Fees to the
balance due on your Account. In no event will your Late Payment Fee exceed your
minimum payment due.
12. Canceling or Limiting Your Credit Authorization: As permitted by applicable law, we
have the right at any time to limit or terminate the use of your Account and raise or lower
your credit limit without giving you notice in advance. Some purchases will require our prior
authorization, in which case you may be asked to provide identification. If our authorizations system is not working, we may not be able to authorize a transaction, even if you
have sufficient available credit. We will not be liable to you if this happens. We are not
responsible for the refusal of anyone to accept or honor an addition to this Account. In
addition, even if you cancel the use of your Account, you are still responsible for any
Account balances incurred by the authorized user that remain unpaid.
13. Voluntary Termination: We will terminate your Account if two things happen: (1) You
have paid off your account and it has a zero balance; and (2) You have not used any of
your available credit on this account for 365 days after the account has a zero balance. No
action is required to terminate your Account under these circumstances.
14. Changes In this Agreement: We may change any term of this Agreement, including
rate of Interest. We will furnish you notice of the change to the extent, if any, required by
law. If not prohibited by applicable law, any new terms may at our option be applied to any
balance existing on the Account at the time of change, as well as to any subsequent
transactions.
15. Credit Inquiries and Accurate Reporting: You authorize us to obtain a credit report
on you for any legal purpose in connection with this Agreement, including any update,
credit increase request, extension of credit, review or collection of amounts due under this
Agreement. If you request, we will tell you whether any report was requested, and if so, the
name and address of the credit bureau furnishing the report. Negative information may

be reported by us to the credit reporting bureaus in connection with your Account
such as late payments, missed payments or defaults on your Account.
16. Disputed Accuracy of Credit Report: If you believe we have reported inaccurate
information about you to a consumer reporting agency, please contact us at Rooms to Go
Loan Services, PO Box 29429, Atlanta, GA 30359. ATTENTION: DISPUTES. When you
notify us, identify the information in question and tell us why you believe it is inaccurate. If
you have a credit report that includes the information that you believe to be inaccurate,
include a copy of that credit report.
17. No Waiver By Us: You agree we have the right without notice to you to delay or refrain
from enforcing our rights under this Agreement without losing them. For example, and
without limitation, you agree we may extend the time to make payments without extending
the lime to make other payments, accept late or partial payments without waiving our right
to have future payments made when they are due, and waive any charge or fee without
losing our right to impose that charge or fee when it is due under this Agreement.
18. Telephone Monitoring/Recording: In order to assure that you receive the best
possible customer service and that our employees are complying with our policies and all
applicable laws in their contacts with you, on occasion a second employee may listen to or
record customer calls.
19. Change of Address and Governing Law: You agree to notify us promptly in writing if
you move. Until we receive written notice from you, or definitive proof of a new address, we
will continue to send monthly statements and other notices to the address we have on file
for this Account. This Agreement and your Account are governed by the federal laws
of the United States and, to the extent not preempted by federal law the laws of the
State of Georgia (without regard to its internal principles of conflict of laws), whether
or not you live in Georgia. This Agreement is entered into between you and us in Georgia
and we extend credit to you from Georgia.
20. YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at Rooms to Go Loan
Services, PO Box 29429, Atlanta, GA 30359. ATTENTION: CUSTOMER SOLUTIONS.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you 		
		 believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement
• At least 3 business days before an automated payment is scheduled, if you want to 		
		 stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are
not required to investigate any potential errors and you may have to pay the amount in
question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. 		
		 We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to 		
		 you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that 		
		 amount.
• The charge in question may remain on your statement, we may continue to charge you
		 interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the 		
		 remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest
		 or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in 		
		 question, along with applicable interest and fees. We will send you a statement of the
		 amount you owe and the date payment is due. We may then report you as delinquent if
		 you do not pay the amount we think you owe by the date the payment is due.
If you receive our explanation but still believe your bill is wrong, you must write to us within
10 days telling us that you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent and we must let those
organizations know when the matter has been settled between us. If we do not follow all of
the rules above, you do not have to pay the first $50 of the amount you question even if
your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit
card, and you have tried in good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your 		
		 current mailing address, and the purchase price must have been more than $50. 		
		 (Note: Neither of these are necessary if your purchase was based on an
		 advertisement we mailed to you, or if we own the company that sold you the goods or
		 services.)
2. You must have used your credit card for the purchase. Purchases made with cash 		

		 advances from an ATM or with a check that accesses your credit card account do not
		 qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us
in writing [or electronically] at: Rooms to Go Loan Services, PO Box 29429, Atlanta, GA
30359, email: service@greenskycredit.com.
While we investigate, the same rules apply to the disputed amount as discussed above.
After we finish our investigation, we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as delinquent.
21. Entire Agreement: This Agreement constitutes the final written expression of the credit
agreement between you and us relating to your Account. We are not bound by any oral
representations made or implied that are not directly reflected in this Cardholder
Agreement. A credit agreement must be in writing to be enforceable. Oral Agreements or commitments to loan money, extend credit or to forbear from enforcing
repayment of a debt including promises to extend to renew such debt are not
enforceable. To protect you (borrower(s)) and us from misunderstanding or
disappointment, any agreements we reach covering such matters are contained in
this writing, which is the complete and exclusive statement of the agreement
between us, except as we may agree in writing to modify it.
22. MILITARY LENDING ACT: The Military Lending Act provides protections for certain
members of the Armed Forces and their dependents (“Covered Borrowers”). The
provisions of this section apply to Covered Borrowers under the Military Lending Act. If you
would like more information about whether you are a Covered Borrower and whether this
section applies to you, please contact us at 877-266-2945.
Statement of MAPR. Federal law provides important protections to members of the Armed
Forces and their dependents relating to extensions of consumer credit. In general, the cost
of consumer credit to a member of the Armed Forces and his or her dependent may not
exceed an Annual Percentage Rate of 36%. This rate must include, as applicable to the
credit transaction or account: (1) the costs associated with credit insurance premiums; (2)
fees for ancillary products sold in connection with the credit transaction; (3) any application
fee charged (other than certain application fees for specified credit transactions or
accounts); and (4) any participation fee charged (other than certain participation fees for a
credit card account). Oral Disclosures. In order to hear important Military Lending Act
disclosures and payment information provided in this Agreement, please call
877-266-2945.
23. State Law Notices:
CALIFORNIA RESIDENTS: Interest is compounded on unpaid finance charges on
Purchases.
DELAWARE RESIDENTS: Finance charges will be imposed in amounts or at rates not in
excess of those permitted by law on the outstanding balances from month to month.
FLORIDA RESIDENTS: You (borrower) agree that, should we obtain a judgment against
you, a portion of your disposable earnings may be attached or garnished (paid to us by
your employer), as provided by Florida and Federal law.

MARYLAND RESIDENTS: You have the right under Section 12-510 of
the Commercial Law Code to receive an answer to a written inquiry
concerning the status of your account.

NEW JERSEY RESIDENTS: Because certain provisions of this Agreement are subject to
applicable law, they may be void, unenforceable or inapplicable in some jurisdictions. None
of these provisions, however, is void, unenforceable or inapplicable in New Jersey.
RHODE ISLAND RESIDENTS: This is a NON-NEGOTIABLE CONSUMER NOTE.
WISCONSIN RESIDENTS: We will not charge you attorneys’ fees, court costs, or other
collection costs incurred as a result of your default.
MARRIED WISCONSIN RESIDENTS: No provisions of any marital property agreement,
unilateral statement under Section 766.59 or court decree under Section 66.70 will
adversely affect the interest of the creditor unless the creditor, prior to the time credit is
granted, is furnished a copy of the agreement statement, or decree or has actual
knowledge of the adverse provision when the obligation to the creditor is incurred. We are
required to ask you to provide the name and address of your spouse.
NOTICE TO THE BUYER:
1. DO NOT SIGN THIS CREDIT AGREEMENT BEFORE YOU READ IT OR IF IT 		
		 CONTAINS ANY BLANK SPACES.
2. YOU ARE ENTITLED TO A COMPLETELY FILLED IN COPY OF THIS CREDIT 		
		 AGREEMENT.
3. YOU MAY AT ANY TIME PAY MORE THAN THE MINIMUM PAYMENT OR YOUR 		
		 ENTIRE BALANCE IN FULL WITHOUT INCURRING ANY ADDITIONAL CHARGE
		 FOR PREPAYMENT.
NY RESIDENTS: RETAIL INSTALMENT CREDIT AGREEMENT
Borrower’s Signature: Your signature (including any electronic or digital signature) on any
Application or on any sales slip or other evidence of indebtedness on your Account
represents your signature on this Agreement.
Borrower: Sign Here: 				
			
If not physically signed and dated above, see electronic signature

Date:

Borrower: Sign Here: 				
Date:
			
If not physically signed and dated above, see electronic signature
LENDER: /s/ Brand Banking Company, a Georgia state-chartered bank.
NOTICE:
ANY HOLDER OF THIS CONSUMER CREDIT CONTRACT IS SUBJECT TO ALL
CLAIMS AND DEFENSES WHICH THE DEBTOR COULD ASSERT AGAINST THE
SELLER OF GOODS AND SERVICES OBTAINED PURSUANT HERETO OR WITH
THE PROCEEDS HEREOF. RECOVERY HEREUNDER BY THE DEBTOR SHALL NOT
EXCEED AMOUNTS PAID BY THE DEBTOR HEREUNDER.
RTG_Terms_Conditions_20170403 Revised 04/17

FACTS

WHAT DOES BRANDBANK DO WITH YOUR PERSONAL INFORMATION?

Rev.
Rev. October 2016

Why?

Financial companies choose how they share your personal information. Federal law gives consumers the right to limit some
but not all sharing. Federal law also requires us to tell you how we collect, share and protect your personal information.
Please read this notice carefully to understand what we do.

What?

The types of personal information we collect and share depend on the product or service you have with us. This information
can include:
- Social Security number and Income
- Account balances and Payment history
- Credit history and Credit scores

How?

All financial companies need to share customers' personal information to run their everyday business. In the section below,
we list the reasons financial companies can share their customers' personal information; the reasons BrandBank chooses to
share; and whether you can limit this sharing.

Page 2

What we do
How does BrandBank protect
my personal information?

To protect your personal information from unauthorized access and use, we use security measures that
comply with federal law. These measures include computer safeguards and secured files and buildings.
We restrict access to your personal information to those who have a legitimate business purpose, and we
train employees on data security and confidentiality.

How does BrandBank collect my We collect your personal information, for example, when you
personal information?
- Open an account or Deposit money
- Apply for a loan or Use your credit or debit card
- Give us your income information
We also collect your personal information from others, such as credit bureaus, affiliates, or other
companies.
Why can't I limit all sharing?

Federal law gives you the right to limit only
- sharing for affiliates' everyday business purposes--information about your creditworthiness
- affiliates from using your information to market to you
- sharing for nonaffiliates to market to you
State laws and individual companies may give you additional rights to limit sharing.
Your choices will apply to everyone on your account

Yes

What happens when I limit
sharing for an account I hold
jointly with someone else?

Yes

No

Definitions

For our affiliates' everyday business purposes-information about your creditworthiness

Yes

Yes

For our affiliates to market to you

Yes

Yes

For nonaffiliates to market to you

Yes

Yes

Reasons we can share your personal information

Does BrandBank share?

Can you limit this sharing?

For our everyday business purposes-such as to process your transactions, maintain your account(s), respond
to court orders and legal investigations, or report to credit bureaus

Yes

No

For our marketing purposes-to offer our products and services to you

Yes

Yes

For joint marketing with other financial companies

Yes

For our affiliates' everyday business purposes-information about your transactions and experiences

To limit our
sharing

Questions?

- Call toll-free 877-778-2710 - our menu will prompt you through your choice(s)
- Mail the form below
Please note:
If you are a new customer, we can begin sharing your information 30 days from the date we provided or sent this notice.
When you are no longer our customer, we continue to share your information as described in this notice.
However, you can contact us at any time to limit our sharing.

Affiliates

Companies related by common ownership or control. They can be financial and nonfinancial companies.
- Our affiliates include financial companies, such as
Brand Mortgage Group, LLC, a wholly-owned subsidiary of The Brand Banking Company.

Nonaffiliates

Companies not related by common ownership or control. They can be financial and nonfinancial companies.
- Nonaffiliates we share with can include can include credit card providers.

Joint marketing

A formal agreement between nonaffiliated financial companies that together market financial products or services to
you.
- Our joint marketing partner(s) include our credit card and marketing service providers

Call 770-963-9224

---------------------------------------------------------------------------------------------------

Mail-in Form
Mark any/all you want to limit:
[ ] Do not share information about my creditworthiness with your affiliates for their everyday business purposes.
[ ] Do not allow your affiliates to use my personal information to market to me.
[ ] Do not share my personal information with nonaffiliates to market their products and services to me.
[ ] Do not share my personal information to market to me.
[ ] Do not share my personal information with other financial institutions to jointly market to me.
Name

Mail to:
BrandBank
P.O. Box 1110
Lawrenceville, Ga. 30046

Address
City, State, Zip
Account Number

© 1995-2015 Compliance Systems, Inc. 79b8ab39-9211999e - 2014CLS1.0.604 - 05/19/2014

- brand

- BrandBank is the trade name of The Brand Banking Company

RTG_Terms_Conditions_20170403 Revised 04/17

